                             United States Attorney John P. Kacavas
                                   District of New Hampshire


FOR IMMEDIATE RELEASE                                             CONTACT: Theresa A. Leppard
Tuesday, August 21, 2012                                          (603) 230-2502
http://www.justice.gov/usao/nh/                                    email: usanh.media@usdoj.gov




                         MAN SENTENCED FOR DEFRAUDING
               INTERNATIONAL CUSTOMERS OF NEW HAMPSHIRE BUSINESS

       CONCORD, N.H. – Paul Wilson, 41, formerly of Dover, New Hampshire, was sentenced in
United States District Court for the District of New Hampshire to 12 months and 1 day in prison
and two years of supervised release for defrauding several international customers of his former
employer, Goss International Americas Corporation, announced United States Attorney John P.
Kacavas.

        Wilson was the International Trade Finance Manager for Goss, which manufactures
commercial printing presses. His job included securing financing for foreign purchasers of Goss’s
products and working with the Export-Import Bank of the United States to obtain guarantees or
credit insurance for loans extended to Goss’s foreign customers.

        From about 2004 through about 2008, Wilson defrauded several Goss customers of
approximately $148,000. He assisted in forming a shell company called Zephyr Financial, LLC.
Zephyr Financial, LLC sent invoices for loan underwriting and structuring services that were either
never rendered or that Wilson performed as part of his job at Goss to several of Goss’s commercial
customers in Mexico and Brazil. These invoices totaled tens of thousands of dollars in bogus
charges. The victim companies wired payments for the fraudulent invoices to a bank account
controlled by Wilson.

      On June 8, 2011, a federal grand jury indicted Wilson for wire fraud in connection with this
scheme and he pled guilty to three counts of wire fraud on January 30, 2012.

      This case was investigated by the Office of the Inspector General for the Export-Import
Bank of the United States. It was prosecuted by Assistant United Sates Attorney Mark S.
Zuckerman.




                                                ###
